Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 1 of 42. PageID #: 1516

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

GRACSHAWN THOMAS,
Petitioner,
v.
WARDEN ED SHELDON,
Respondent.

)
)
)
)
)
)
)
)
)
)
)

CASE NO. 5:17CV1769
JUDGE PAMELA A. BARKER
MAGISTRATE JUDGE
WILLIAM H. BAUGHMAN, JR.
REPORT AND RECOMMENDATION
RE
PETITION
OF
GRACSHAWN
THOMAS
FOR
WRIT OF HABEAS CORPUS

Table of Contents
Introduction ......................................................................................................................... 3
Facts..................................................................................................................................... 4
A.

Underlying facts, conviction and sentence.................................................... 4

B.

Direct Appeal ................................................................................................ 7

C.

D.

1.

Ohio court of appeals........................................................................... 7

2.

Supreme Court of Ohio........................................................................ 8

Post-conviction proceedings ......................................................................... 9
1.

First Rule 26(B) application ................................................................ 9

2.

Successive Rule 26(B) application .................................................... 13

Federal habeas petition................................................................................ 15

1

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 2 of 42. PageID #: 1517

Analysis ............................................................................................................................. 18
A.

Preliminary observations............................................................................. 18

B.

Evidentiary hearing ..................................................................................... 19

C.

Overview ..................................................................................................... 20

D.

Ground One ................................................................................................. 22
1.

Sub-claim G ....................................................................................... 22

2.

Sub-claim E ....................................................................................... 23

3.

Sub-claims A, B, C, D ....................................................................... 23

4.

Sub-claim F........................................................................................ 31

E.

Ground Two ................................................................................................ 35

F.

Ground Three .............................................................................................. 35

G.

Ground Four ................................................................................................ 39

H.

Ground Five................................................................................................. 41

Conclusion ......................................................................................................................... 41

2

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 3 of 42. PageID #: 1518

Introduction
Before me 1 is the petition of Gracshawn Thomas for a writ of habeas corpus under
28 U.S.C. § 2254. 2 Thomas was convicted in 2014 by a Summit County Common Pleas
Court jury of aggravated murder with firearm specifications, having a weapon under
disability and tampering with the evidence. 3 Pursuant that sentence, he is currently
incarcerated by the State of Ohio at the Mansfield Correctional Institution in Mansfield,
Ohio where he is serving a sentence of 35 years to life. 4
In his petition, Thomas raises five grounds for habeas relief. 5 The State in its return
of the writ 6 argues that four of the five grounds should be dismissed as procedurally
defaulted and that the remaining ground should be dismissed as non-cognizable. 7 Thomas
filed a traverse wherein he contends that any procedural default is excused because of
actual innocence and/or ineffective assistance of both trial and appellate counsel. 8
For the following reasons I recommend that the petition by dismissed in part and
denied in part as is more fully set forth below.

1

The matter was referred to me under Local Rule 72.2 by United States District Judge
Patricia A. Gaughan in a non-document order dated August 24, 2017. The case was
reassigned to United States District Judge Pamela A. Barker pursuant to General Order
2019-13 in a non-document entry dated June 26, 2019, which order did not alter the referral.
2
ECF No. 1.
3
Id.
4
See https://appgateway.drc.ohio.gov/OffenderSearch.
5
ECF No. 1.
6
ECF No. 23. The return of the writ was filed after the District Judge declined to accept a
Report and Recommendation that this petition be dismissed as time-barred and returned
the matter to me. ECF No. 20.
7
ECF No. 23.
8
ECF No. 28.
3

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 4 of 42. PageID #: 1519

Facts
A.

Underlying facts, conviction and sentence

The underlying facts were found by the state appeals court. 9 On the morning of
September 18, 2013, Alphonzo Golden was waiting at a traffic light in Akron when a tan
Buick Rendezvous pulled up along the driver’s side of his station wagon. 10 Witnesses
described the driver of the Rendezvous as an African-American male wearing a black hat
and red hooded sweatshirt. 11 The driver of the Rendezvous lowered the driver’s window
of his car, extended a gun toward Golden, fired multiple times, striking Golden twice, killing him, and then pulled around other traffic and sped away. 12
A short time later, Thomas pulled into a nearby backyard in a tan Buick Rendezvous
and began cleaning out the vehicle’s interior. 13 He was wearing a maroon hooded
sweatshirt. 14 He was then joined by one of his cousins who helped him clean out the
Buick. 15 Meanwhile, Thomas’s girlfriend learned about the shooting, went to the scene,
and there gave police Thomas’s name as a possible suspect, along with the name of the
cousin and another friend of theirs. 16 An analysis of Thomas’s cellphone data indicated

9

Facts found by the state appeals court on its review of the record are presumed correct by
the federal habeas court. 28 U.S.C. § 2254 (e)(1); Mason v. Mitchell, 320 F.3d 604, 614
(6th Cir. 2003) (citing Sumner v. Mata, 449 U.S. 539, 546-47 (1981)).
10
ECF No. 7, Attachment 2 (state court record) at 91 (Ohio appeals court opinion).
11
Id.
12
Id.
13
Id. at 92.
14
Id.
15
Id.
16
Id.
4

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 5 of 42. PageID #: 1520

that his phone had been in the vicinity of the shooting at the time it occurred. 17
A week after the shooting, police got a warrant to arrest Thomas. 18 Early the next
morning, police located the Rendezvous Thomas was driving the day of the shooting. 19
The vehicle had been painted black and set on fire. 20 Thomas turned himself in later that
day. 21
At trial, Thomas denied knowing the victim and said he had no animosity toward
him. 22 Thomas further testified that the tan Rendezvous he was driving on the morning of
the shooting belonged to a relative known as “Poon,” and that he was out purchasing
marijuana he intended to resell, with a plan to later return the vehicle to Poon in the
backyard where he met his cousin. 23 He stated that he needed to clean the Buick’s interior
because he realized that some of the marijuana he had packaged for resale had come loose
and had fallen out of his pockets. 24
Thomas argued in his defense that the evidence against him was purely
circumstantial. 25

Specifically, he asserted that although he was driving a similar

Rendezvous on the day of the shooting, no one obtained a license number of the particular
Rendezvous that was involved in the murder. 26 Moreover, he noted that he was wearing a

17

Id.
Id.
19
Id.
20
Id.
21
Id.
22
Id.
23
Id.
24
Id.
25
Id. at 94.
26
Id.
18

5

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 6 of 42. PageID #: 1521

maroon sweatshirt, not red, and that he was not wearing a black hat. 27 He further noted
that given the wide area within the coverage area of a cellphone tower, the fact that activity
from his phone was picked up on a particular tower doesn’t mean he was the shooter. 28
Finally, he stated that there was no evidence he either knew or had reason to kill the victim,
that he even possessed a gun, or that destroyed Poon’s Rendezvous. 29
For its part, the State produced evidence that Thomas had some prior history with
the victim that made Thomas concerned about his safety. 30 Further, the State emphasized
that at the time of the murder Thomas was driving the same make, model and color vehicle
as witnesses saw was driven by the killer, and was wearing similar clothing. 31 The State
noted that immediately after the shooting Thomas’s cellphone made several calls to his
cousin’s cellphone, and that the two men then met to clean out the interior of the vehicle. 32
A detective testified that the gun used in the murder would have ejected shell casings inside
the shooter’s vehicle. 33 The victim’s girlfriend testified that some months before the shooting one of Thomas’s cousins was killed and at that time the victim became concerned for
his safety. 34 Thomas admitted that his cousin’s death occurred at the victim’s birthday
party. 35

27

Id. at 93-94.
Id.
29
Id. at 94.
30
Id. at 95.
31
Id.
32
Id.
33
Id.
34
Id. at 96.
35
Id. at 97.
28

6

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 7 of 42. PageID #: 1522

A jury found Thomas guilty of aggravated murder, with two firearm specifications;
murder, with two firearm specifications; having a weapon while under disability; and
tampering with evidence. 36 On June 13, 2014, the trial judge sentence Thomas to an
aggregate sentence of 35 years to life. 37
B.

Direct appeal
Ohio court of appeals

On June 16, 2014, Thomas, through different counsel, 38 timely39 filed a notice of
appeal. 40 In his brief in support, 41 Thomas raised the following assignments of error:
1.
The trial court erred as a matter of law when it allowed the introduction of
inadmissible hearsay of the alleged victim in violation of Mr. Thomas’s right to confront
witnesses under the Sixth Amendment to the U.S. Constitution and Article I, Section 1, 10
& 16 of the Ohio Constitution.
2.
The trial court erred as a matter of law because the State failed to establish
on the record sufficient evidence to support the charges levied against Mr. Clayton [sic] in
violation of the Due Process clause of the 14th Amendment to the U.S. Constitution and
Article I, Section 1, 10 & 16 of the Ohio Constitution.

36

Id. at 6-9.
Id.
38
Thomas was represented at trial by retained counsel Michael Bowler and Robert Meeker
(id. at 5,6) and initially by court-appointed counsel Paul Grant on appeal (id. at 15, 83),
although the trial attorneys filed the notice of appeal (id. at 11). Thomas later retained Gary
Levine as counsel during the pendency of the appeal (id. at 83-85) and the court permitted
attorney Grant to withdraw (id. at 86).
39
To be timely, a notice of direct appeal in Ohio must filed within 30 days of the date of
the judgment being appealed. Ohio App. R. 4 (A). Here, the notice of appeal was filed
within 3 days of the entry of the conviction and sentence.
40
ECF No. 7. Attachment 2 at 11. Though retained counsel Levine sought to withdraw the
brief initially filed by appointed counsel Grant (id. at 87-89), that motion was denied (id.
at 90).
41
Id. at 15-48.
37

7

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 8 of 42. PageID #: 1523

3.
Mr. Clayton’s convictions are against the manifest weight of the evidence
possession [sic] in violation of the Due Process clause of the 14th Amendment to the U.S.
Constitution and Article I, Section 1, 10 & 16 of the Ohio Constitution. 42
The State filed a responsive brief 43 and on June 17, 2015 the Ohio court of appeals
overruled all the assignments of error and affirmed the judgment of the trial court. 44
Supreme Court of Ohio
Approximately 14 months after the decision of the Ohio appeals court, Thomas, pro
se, filed a notice of appeal and motion for delayed appeal with the Supreme Court of
Ohio. 45 In the affidavit attached to the motion for a delayed appeal, Thomas stated that
although he found out about the appeals court decision in his case just 5 days after it was
entered, he did not timely file an appeal with the Supreme Court of Ohio within 45 days
because he had not formally been in contact with his appellate counsel concerning the
judgement of the appeals court and he had filed a Rule 26(B) application to reopen the
appeal on the grounds of ineffective assistance of appellate counsel. 46 He further told the
Supreme Court of Ohio that he believed the pendency of his Rule 26(B) application would
toll the time for filing an appeal to the Supreme Court. 47 In any case, he stated, the incorrect
belief about tolling “would not have changed the fact that my appeal was untimely due to
counsel’s failure to inform me of the decision in my case which prevented me from filing

42

Id. at 20.
Id. at 49-82.
44
Id. at 91-100.
45
Id. at 101. The filing was entered on August 10, 2016.
46
Id. at 105.
47
Id.
43

8

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 9 of 42. PageID #: 1524

within the required time.” 48
The State did not respond. On October 5, 2016, the Ohio Supreme Court denied the
motion to file a delayed appeal. 49
C.

Post-conviction proceedings
First Rule 26(B) application

On September 16, 2015—three months after the appeals court affirmed his conviction, and nearly a year before he moved the Ohio Supreme Court to file a delayed appeal—
Thomas, pro se, filed a Rule 26(B) application to re-open his appeal. 50 In his application
Thomas set forth the following grounds:
1.
CONFRONTATION CLAUSE VIOLATION: A criminal defendant has a
constitutional right to confront witnesses via the Sixth Amendment to the United States
Constitution. When a defendant fails to object to the violation of his constitutional rights
at trial the error may still be reviewed under a plain error analysis. State v. Ricks, 2010Ohio-4659. An appellate court reviews de novo the question of whether or not the
admission of evidence violated a defendant’s Sixth Amendment Confrontation Clause
rights. State v. Patel, 9th Dist. No. 24024, 2008-Ohio-4692. Under the Confrontation
Clause, hearsay of the deceased victim may not be admitted against the defendant. Davis
v. Washington, 547 U.S. 813, 833 (2006).
2.
INADMISSIBLE EVIDENCE: Thomas’s due process rights were violated
by allowing State Exhibit 16 (videotape of Thomas cleaning out a Buick Rendezvous) and
State Exhibits 20-23 (picture of a Buick Rendezvous with paint and fire damage) to be
admitted into trial [sic]. Although Thomas did not object to the admission of this evidence,
he may still argue plain error. State v. Ricks, 2010-Ohio-4659.
3.
JURY NOT PROPERLY INSTRUCTED: A criminal defendant has a due
process right to a properly instructed jury via the Fifth Amendment of the United States
Constitution. In the current instance, Thomas’s jury was not properly instructed specifically (but not limited to) on weighing circumstantial evidence.

48

Id.
Id. at 118.
50
Id. at 119.
49

9

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 10 of 42. PageID #: 1525

4.
SUFFICIENCY OF THE EVIDENCE: In the first and second arguments
raised in this application Thomas challenges the admissibility of evidence used on
convicting him. In the second argument, Thomas challenges numerous inferences that
were used in convicting him asserting that they have no probative value via Hurt v. Charles,
supra. Thomas’s appellate counsel, as they show the evidence [was] insufficient and his
conviction [was] in violation of due process, should have raised the following two
arguments:
i.
Without use of State Exhibit 16 and/or State Exhibit[s] 20-23, and/or the
inadmissible hearsay of Ms. Marcedes White, the evidence was insufficient to support
Thomas’s conviction with particular regards (but not limited to) the “prior calculation and
design” and the underlying gun specification.
ii.
Even if State Exhibit 16 and/or State Exhibit[s] 20-23 and/or the statements
of Ms. White are admissible, there is no evidence on which a proper inference can be based
to establish the elements of this crime. As previously stated, an inference based upon an
inference has no probative value. Id. The inferences used to establish the elements of this
crime have no probative value (see Argument Two), and the evidence is insufficient,
because there is no evidence upon which a proper inference may be made to establish the
elements of this crime.
5.
MANIFEST WEIGHT: A manifest weight challenge requires the court to examine
whether the prosecution has met its burden of persuasion. State v. Thompkins, 78 Ohio St.
3d 380, 390 (1997). Two argument should have been raised in support of Thomas’s
manifest weight argument as they clearly show the jury lost its way and denied Thomas his
right to due process and a fair trial.
i.
“Where the circumstances are irreconcilable upon the theory of the accused’s
innocence the jury are bound to so treat them. It is only when the facts and circumstances
are irreconcilable with his innocence that he can be convicted.” Carter, supra.
ii.
As state[d] in argument No. 2, an inference upon an inference has no
probative value. Hunt v. Charles, supra. Even were the evidence discussed in argument
No. 2 admissible, it would not change the fact that you cannot draw an inference from
another inference. Therefore, the conclusion of Thomas pulling shell casings out of the
Buick seen in State Exhibit 16 should not have held any probative value in the mind of the
jury. The same can be said for State Exhibits 20-23 and the impermissible inferences drawn
therefrom. Without the use of any of this evidence or of inferences that have no probative
value, there is a serious lack of evidence showing Thomas guilty of this crime. Due to
them being based solely upon another inference, the court should weigh the manifest
weight of Thomas’s conviction without the use of two conclusions: (1) Thomas was
cleaning out shell casings out of the vehicle seen in State Exhibit 16 to mask his guilt; (2)
Thomas lit the car seen in State Exhibits 20-23 on fire to destroy evidence and to mask his
guilt.

10

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 11 of 42. PageID #: 1526

6.
PROSECUTORIAL MISCONDUCT: “While [the prosecution] may strike hard
blows, he is not at liberty to strike foul ones.” Berger v. United States, 295 U.S. 78. In
addition, the test for prosecutorial misconduct is whether the conduct complained of deprived the defendant of a fair trial. State v. Fears, 86 Ohio St. 3d 329. Furthermore,
improper remarks of the prosecution include improper statements of law. State v. Davie,
1995 Ohio App. LEXIS 6064 [1995 WL 870019]. The conduct currently complained of is
the repeated arguing of impermissible inferences by the prosecution (see Argument Two
above). During Thomas’s trial, the prosecution repeatedly attempted to persuade the jury
that Thomas was removing shell casings from the vehicle seen in State Exhibit 16,
notwithstanding that this was an impermissible inference to draw. Thomas is unable to cite
the transcript pages of this error due to the unavailability of the record but has attached an
affidavit pursuant to App. Rule 9 in support of this claim. These blows were “foul” as they
invited the jury to draw inferences that violated Thomas’s due process rights. Though
Thomas did not object to this error at trial, he may still argue plain error. Fears, supra.
7.
COUNSEL INEFFECTIVE: The Sixth Amendment of the U.S. Constitution
guarantees a defendant the effective assistance of counsel. Thomas’s counsel failed to
investigate a crucial fact relevant to the defense of his client. The axiom [sic] of the State’s
case against Thomas is the allegation that the Buick Rendezvous recovered from Harvey
Street was the same Buick Rendezvous used in the drive-by shooting that killed Alphonzo
Golden. Samples were taken to determine the presence of gunshot residue when the car
was recovered. (TR 457, 461). However, no testing of these samples was ever completed.
(TR 646-647). Thomas insisted that his counsel recover the results of these tests, asserting
that he was innocent of the crime and there could not possibly be any gunshot residue in
the vehicle. Thomas’s counsel did not file a motion to compel the results of these tests,
nor did counsel attempt to have his own samples drawn from the vehicle for testing.
Compelling the results of the samples taken from the vehicle or arranging to have the car
tested would be a “reasonable investigation” under the circumstances considering his client
was insisting the evidence would be beneficial to his defense. 51
The State responded in opposition, arguing that the motion to re-open was filed 91
days after the decision of the appellate court and was therefore untimely. 52 The State
further asserted that no explanation for the late filing was given and so the Rule 26(B)
application should be denied. 53 Thomas, through retained counsel, filed a reply, admitting

51

Id. at 119–27.
Id. at 132.
53
Id.
52

11

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 12 of 42. PageID #: 1527

that the Rule 26(B) application was late, but arguing that the appellate court’s refusal to
allow retained counsel to substitute his brief on direct appeal for the purportedly deficient
one of appointed counsel constitutes “good cause” to now overlook the late filing and address the argument in the Rule 26(B) application. 54 Thomas, pro se, also filed a responsive
brief, arguing that as a pro se litigant he “did his best” to present his arguments “in a timely
fashion,” and now “respectfully ask[s] this court for leniency in this 1 day delay.” 55
On March 30, 2016, the Ohio appeals court denied Thomas’s Rule 26(B) application
as untimely. 56 The court found that Thomas had failed to raise any argument of good cause
for the delay in his original application, waiting instead to present a good cause argument
in his reply brief. 57 The court then observed that it “will not generally consider arguments
raised for the first time in reply.” 58
Thomas, through counsel, moved for reconsideration. 59 Counsel in the attached
affidavit maintained that while he “in good faith” believed that Thomas’s pro se application
was timely filed, he also “concedes that as computational error resulted in a filing on the
91st day.” 60 He concluded by arguing that the alleged merit in Thomas’s arguments “should
mitigate in favor of finding good cause [for the untimeliness] and [the appeals court should]

54

Id. at 134–38.
Id. at 139 (emphasis original).
56
Id. at 140.
57
Id.
58
Id.
59
Id. at 142.
60
Id. at 148.
55

12

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 13 of 42. PageID #: 1528

accept the application and militate [sic] the appeal.” 61 The State did not respond and, on
June 1, 2016, the Ohio appellate court denied the motion to reconsider. 62
Thomas, pro se, then filed an appeal from the decisions denying the motion to reopen and the motion to reconsider. 63 The State waived filing a response. On August 31,
2016, the Supreme Court of Ohio declined to accept jurisdiction. 64
Successive Rule 26(B) application
On August 23, 2017—nearly one year after the Ohio Supreme Court ended proceedings in Thomas’s first Rule 26(B) application to re-open his appeal—Thomas, through new
counsel (who is current counsel for the federal habeas petition), filed a second Rule 26(B)
application to re-open the original appeal. 65 As grounds, Thomas alleged the following:
1.

Appellate counsel were 66 constitutionally ineffective by failing to raise trial
counsel’s constitutional ineffectiveness under the Sixth and Fourteenth
Amendments of the federal constitution as follows:
a.
Trial counsel failed to understand the cellphone records used by the
State, put forth an alibi based on the misunderstanding of the cellphone
records, and failed to investigate properly the available evidence.
b.
Trial counsel failed to cross-examine and request jury instruction on
“confirmation bias.”
c.
It was either prosecutorial misconduct and/or ineffective assistance of
trial counsel to present the victim in false light to the jury, withhold from the
jury the true reputation of the victim, especially in light of the State’s opening
statement and the pending charges against the victim for shooting at two

61

Id.
Id. at 149.
63
Id. at 151.
64
Id. at 167.
65
Id. at 168.
66
As noted, Thomas was initially represented by appointed counsel who filed the brief on
appeal and then by retained counsel.
62

13

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 14 of 42. PageID #: 1529

people in a car; withhold evidence of third-party guilt. The Sixth and
Fourteenth Amendment of the federal Constitution were violated.
d.
Thomas should have been granted a separate trial from his codefendant since significant evidence pointed to co-defendant’s guilt.
e.
Appellate counsel was constitutionally ineffective in failing to inform
Thomas of the deadline for filing a post-conviction petition under ORC
2953.21 in violation of the Sixth and Fourteenth Amendments of the federal
Constitution.
f.
Counsel was ineffective in failing to object under the confrontation
clause of the federal Constitution concerning statements made by victim to
his girlfriend concerning Thomas.
g.
The cumulative effects of the errors in this case detailed in 1 A-F
above denied Thomas a fair trial and Due Process under the Fourteenth
Amendment of the federal Constitution and Art. I Sec. 10 of the Ohio
Constitution. 67
The State opposed Thomas’s attempt to file a second, successive Rule 26(B)
application. 68 On October 2, 2017, the Ohio appeals court denied the second application
to re-open. 69 The court found first that under Ohio law there is no right to file second,
successive Rule 26(B) applications to re-open an appeal. 70 In addition, the court further
found that “once ineffective assistance of counsel has been raised and adjudicated, res
judicata bars its re-litigation.” 71
Thomas, again through current counsel, then filed a notice of appeal to the Supreme
Court of Ohio. 72 After the State waived a response, 73 the Supreme Court of Ohio declined

67

Id. at 172–78.
Id. at 219.
69
Id. at 222.
70
Id. (citation omitted).
71
Id. (citations omitted).
72
ECF No. 23, Ex. 2 (supplemental state record) at 1.
73
Id. at 18.
68

14

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 15 of 42. PageID #: 1530

to accept jurisdiction. 74
D.

Federal habeas petition

Thomas, through counsel, appropriately filed 75 the present petition for habeas
corpus under 28 U.S.C. § 2254 on August 23, 2017. In the petition he alleges the following
grounds for relief:
Ground One: Appellate counsel were constitutionally ineffective by failing to raise
trial counsel’s constitutional ineffectiveness under the Sixth and Fourteenth Amendments
to the federal Constitution as follows:
A.
Trial counsel failed to understand the cellphone records used by the State,
put forth an alibi based on the misunderstanding of the cellphone records, and failed to
properly investigate the available evidence.
B.
Trial counsel failed to cross-examine and request jury instruction on
“confirmation bias.”
C.
It was either prosecutorial misconduct and/or ineffective assistance of trial
counsel to present the victim in a false light to the jury; withhold from the jury the true
reputation of the victim especially in light of the State’s opening statement and pending
charges against the victim for shooting at two people in a car; withhold evidence of third
party guilt. The Sixth and Fourteenth Amendment of the federal Constitution were
violated.
D.
Thomas should have been granted a separate trial from his co-defendant since
significant evidence pointed to his co-defendant’s guilt.
E.
Appellate counsel was constitutionally ineffective in failing to inform
Thomas of the deadline for filing post-conviction petition under ORC 2953.21 to his
prejudice in violation of Sixth and Fourteenth Amendment of the federal Constitution.

74

Id. at 19.
ECF No. 20. Chief Judge Gaughan found that although the petition was filed beyond
the one-year time limit set by statute, Thomas was entitled to equitable tolling because his
attorney had effectively abandoned him without Thomas’s knowledge, thus causing
Thomas to miss filing deadlines which, if met, would have tolled the limitations period.

75

15

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 16 of 42. PageID #: 1531

Gunner v. Welch, 749 F.3d 511 (6th Cir. 2014) and Williams v. Lazaroff, Case No. 14-3441,
5-12-16, unpublished, Martinez and Trevino.
F.
Counsel was ineffective in failing to object under the confrontation clause of
the federal Constitution concerning statements made by victim to his girlfriend concerning
Thomas.
G.
The cumulative effect of the errors in this case detailed in A-F above denied
Thomas a fair trial and Due Process under the Fourteenth Amendment of the federal
Constitution and Art. I Sec. 10 of the Ohio Constitution.
Ground Two: The trial court allowed hearsay statements from the girlfriend of the
victim allegedly made to his girlfriend/mother of his children, Marcedes White, in violation
of Crawford and the Petitioner’s right to confront witnesses found in the Sixth and
Fourteenth Amendments of the U.S. Constitution.
Ground Three: There was insufficient evidence to convict Thomas of Aggravated
Murder and related charges under the Fourteenth Amendment of the federal Constitution.
Ground Four: Appellate counsel failed to inform Thomas of the decision by the
Court of Appeals in his direct appeal and was thus constitutionally ineffective under Evitts
and the Sixth and Fourteenth Amendments of the U.S. Constitution.
Ground Five: Mr. Thomas is actually innocent of the Aggravated Murder and
related charges and is in custody for crimes he did not commit in violation of the Sixth and
Fourteenth Amendments of the U.S. Constitution. 76
The State in its return of the writ 77 argues that:

76

ECF No. 1 at 19, 22, 23, 26, 27, 28, 29.
ECF No. 23. The return was filed after the District Judge found, as noted, that the petition
should not be dismissed as time-barred because Thomas was entitled to equitable tolling.
ECF No. 20. The matter was then re-referred to me. ECF No. 21.
77

16

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 17 of 42. PageID #: 1532

Ground One – multiple claims of ineffective assistance of appellate counsel –
should be dismissed as procedurally defaulted because these claims were raised in
Thomas’s first 26(B) application that was dismissed as untimely and raised again in the
second 26(B) application that was denied as having no basis in Ohio law. 78
Ground Two – hearsay/confrontation clause – should be dismissed as procedurally
defaulted because the Ohio appeals court found that because Thomas did not object at trial
to this testimony nor argue plain error on appeal, he had waived the issue. 79
Ground Three – sufficiency of the evidence – should be denied on the merits since
the decision of the Ohio appeals court on this issue was not an unreasonable application of
Jackson v. Virginia.

Alternatively, Ground Three is procedurally defaulted because

Thomas did not timely appeal from the state appellate court decision to the Supreme Court
of Ohio. 80
Ground Four – appellate counsel was ineffective for failing to timely inform
Thomas of the appeals court decision on direct appeal – should be dismissed as procedurally defaulted because Thomas never presented this claim to any Ohio court. Specifically,
he never raised this claim in either Rule 26(B) application. 81
Ground Five – actual innocence – should be dismissed as non-cognizable as a standalone claim and not recognized as a basis to excuse procedural default due to res judicata

78

ECF No. 23 at 24-28.
Id. at 32-37.
80
Id. at 38-44.
81
Id. at 44-47.
79

17

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 18 of 42. PageID #: 1533

or law of the case; i.e., Chief Judge Gaughan has already found that Thomas cannot assert
actual innocence because the evidence in support was available at trial. 82
Thomas filed a traverse. 83

Thomas maintains that the “devastating effect of

counsel’s ineptitude in this trial cannot be understated. But then the misfortune of Mr.
Thomas was compounded on appeal. Mr. Levine was timely hired by the family of Mr.
Thomas [for the direct appeal] yet did next to nothing. The appointed lawyer [for the direct
appeal] filed a poor brief missing many meritorious issues. Mr. Levine’s misconduct
continued and prejudiced Thomas in the [first] 26(B) application, the delayed appeal to the
Ohio Supreme Court and the lack of a post-conviction petition under ORC 2953.21.” 84
Analysis
A.

Preliminary observations

Before proceeding further, I make the following preliminary observations:
1.

There is no dispute that Thomas is currently incarcerated by the State of Ohio

as a result of his conviction and sentence by an Ohio court, and that he was so incarcerated
at the time he filed this petition. Thus, he meets the “in custody” requirement of the federal
habeas statute vesting this Court with jurisdiction over the petition. 85
2.

The is no dispute, as detailed above, that due to equitable tolling, this petition

is properly filed.

82

Id. at 47.
ECF No.
84
Id. at 36.
85
28 U.S.C. § 2254(a); Ward v. Knoblock, 738 F.2d 134, 138 (6th Cir. 1984).
83

18

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 19 of 42. PageID #: 1534

3.

In addition, Thomas states, 86 and my own review of the docket confirms, that

this is not a second or successive petition for federal habeas relief as to this conviction and
sentence. 87
4.

Moreover, subject to the procedural default arguments raised by the State, it

appears that Thomas these claims have been totally exhausted in Ohio courts by virtue of
having been presented insofar as possible through one full round of Ohio’s established
appellate review procedure. 88
5.

Finally, Thomas is here represented by counsel 89 and so has not sought the

appointment of counsel. He has sought an evidentiary hearing. 90
B.

Evidentiary hearing

As noted above, Thomas requests an evidentiary hearing in his prayer for relief in
the petition. In the brief accompanying the petition he also requests the authority to conduct discovery, take depositions, subpoena documents and orally argue the case. 91 That
said, Thomas has not filed a specific motion for an evidentiary hearing detailing exactly
the scope of any such evidentiary hearing.
That precision is meaningful. In Cullen v. Pinholster, 92 the United States Supreme
Court held that federal habeas review “is limited to the record that was before the state

86

ECF No. 1 at 13.
28 U.S.C. § 2254(b); In re Bowen, 436 F.3d 699, 704 (6th Cir. 2006).
88
28 U.S.C. § 2254(b); Rhines v. Weber, 544 U.S. 269, 274 (2005); O’Sullivan v. Boerckel,
526 U.S. 838, 842 (1999).
89
ECF No. 1 at 1, 15.
90
Id.
91
Id. at 29.
92
Cullen v. Pinholster, 563 U.S. 170 (2011).
87

19

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 20 of 42. PageID #: 1535

court that adjudicated the claim on the merits.” 93 To be clear, the Court in Pinholster
emphasized that its holding was not a wholesale bar on federal evidentiary hearings, but
would restrict them to cases where the state court decision was not an adjudication on the
merits. 94 Further, an evidentiary hearing is appropriately denied when the existing state
court record itself “precludes habeas relief.” 95
Here, because Thomas has not identified with particularity exactly what the scope
of any federal evidentiary hearing would be, this Court cannot know if such a hearing
involves a claim already decided on the merits in Ohio court for which Pinholster now bars
a federal evidentiary hearing, or concerns a claim for which sufficient evidence already
exists in the state record to preclude habeas relief. In addition, as noted, there is no motion
now before this Court to rule on.
Thus, to the extent the District Court perceives the language in the petition as a
motion for an evidentiary hearing, I recommend that it be denied for the reasons given
above. If the District Court instead takes note that no motion is now before it for an
evidentiary hearing, no further action is recommended. I observe further that if this Report
and Recommendation is adopted and the petition is denied and/or dismissed in its entirety,
any matter of a hearing would be moot.
C.

Overview

As an initial matter, the classification of the grounds of relief into two groups will

93

Id. at 181.
Id.
95
Schriro v. Landrigan, 550 U.S. 465, 474 (2007).
94

20

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 21 of 42. PageID #: 1536

assist with the analysis of those grounds. The first group relates to arguments asserted in
Thomas’s direct appeal to the court of appeals 96 and the motion to reopen that appeal under
Ohio App. R. 26(B). 97 Specifically, this group consists of:
x Ground 1.E. – ineffective assistance of appellate counsel for failure to argue ineffective assistance of trial counsel for making no objection to hearsay testimony
given by the victim’s girlfriend; and
x Ground 3 – insufficient evidence to support the conviction or, alternatively, the
conviction is against the manifest weight of the evidence.
The court of appeals denied the Rule 26(B) motion on the ground that Thomas failed to
timely file the motion. 98 On objection to a report and recommendation for dismissal, Chief
Judge Gaughan ruled that Thomas’s counsel’s conduct provided grounds for tolling the
statute of limitations that would otherwise bar his petition. 99 By implication that conduct
also excuses the late filing of the Rule 26(B) motion, removing the bar to adjudicating
those grounds otherwise imposed by procedural default related to the late filing.
The second group consists of those arguments made in support of Thomas’s second
and successive motion to reopen under Rule 26(B), 100 including:
x Grounds 1.A–E – ineffective assistance of appellate counsel for failure to argue
ineffective assistance of trial counsel in the handling of Thomas’s cellphone
records, to cross examine and request instructions on confirmation bias, to present
evidence on the true reputation of the victim, to request a separate trial, and to advise Thomas of the deadline for filing a post-conviction petition;
x Ground 1.G – the cumulative effect of errors committed at trial deprived Thomas a
fair trial;
96

ECF No. 7, Motion to Dismiss, Exhibit 2 (State Court Record) at 20.
Id. at 119-29.
98
Id. at 140–41.
99
ECF No. 20.
100
ECF No. 7, Motion to Dismiss, Exhibit 2, at 168-79.
97

21

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 22 of 42. PageID #: 1537

x Ground 4 – ineffective assistance of appellate counsel for failure to advise Thomas
of the decision of the court of appeals; and
x Ground 5 – actual innocence.
Chief Judge Gaughan’s order relates to conduct of an attorney who entered an appearance
on Thomas’s behalf on the first Rule 26(B) motion. That counsel had no involvement in
the second motion, which new counsel filed, the same counsel representing Thomas on this
petition. As more fully explained below, the procedural default defense remains in play as
to those grounds.
D.

Ground One

This ground concerns five sub-claims alleging ineffective assistance of Thomas’s
retained appellate counsel as to failing to raise issues on appeal related to trial counsel’s
performance, plus one sub-claim related to retained appellate counsel’s failure to inform
Thomas of the time for filing a Rule 26(B) application and one sub-claim asserting that the
cumulative effect of the named errors denied Thomas a fair trial and due process.
Sub-claim G
I note first that cumulative error—sub-claim G—is not cognizable in federal habeas
proceedings. 101 Put simply, the United States Supreme Court has never held that individual
constitutional errors that would not themselves support habeas relief can be cumulated to
create such relief. 102

101

Moore v. Parker, 425 F.3d 250, 256 (6th Cir. 2005).
Stober v. Warden, Chillicothe Corr. Inst., No. 19-3980, 2020 WL 1698589, at *3 (6th
Cir. Feb. 18, 2020) (citing Lorraine v. Coyle, 291 F.3d 416, 447 (6th Cir.), opinion
corrected on denial of reh'g, 307 F.3d 459 (6th Cir. 2002)).

102

22

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 23 of 42. PageID #: 1538

Sub-claim E
Next, I note that sub-claim E—retained appellate counsel’s error in failing to timely
notify Thomas of the date of the direct appeal decision so that Thomas could timely file a
Rule 26(B) application to re-open the appeal—is not a stand-alone claim that would itself
procure habeas relief, but could be a cause for the procedural default that occurred when
Thomas made an untimely filing of his 26(B) application and was also cited a basis for
equitable tolling by the District Judge. As the Supreme Court explained in Martinez v.
Ryan, “Section 2254(i) provides that ‘the ineffectiveness or incompetence of counsel during Federal or State post-conviction remedies shall not be a ground for [habeas] relief.’”103
Thus, “while § 2254(i) precludes [a petitioner] from relying on the ineffectiveness of his
post-conviction attorney as a [federal habeas] ‘ground for relief,’ it does not stop [a
petitioner] from using it to establish ‘cause’ [to excuse a procedural default].” 104
Sub-claims A, B, C, D
That said, the State has claimed that Ground One is procedurally defaulted.
Specifically, the State asserts that the sub-claims asserted in Ground One were first asserted
to an Ohio court in Thomas’s second or successive Rule 26(B) application, which was
submitted nearly one year after his first Rule 26(B) application was denied as untimely. 105
The second or successive application, as noted above, was itself dismissed by the Ohio
appeals court on the grounds that Ohio law does not provide for successive or second Rule

103

Martinez v. Ryan, 566 U.S. 1, 17 (2012).
Id. (citation omitted).
105
ECF No. 23 at 24-27.
104

23

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 24 of 42. PageID #: 1539

26(B) applications. Thus, the State contends, Ground One was never properly presented
to an Ohio court and so is here procedurally defaulted.
Thomas, for his part, admits that the initial Rule 26(B) application was untimely
filed but states that the misconduct/incompetence/abandonment of Mr. Levine, his thencounsel, caused the delay. 106 This view was accepted by the District Court 107 as the basis
for finding grounds for equitably tolling the running of the one-year habeas statute of
limitations.
Initially, I note that it is well-settled that the Ohio Supreme Court has held that Ohio
law does not provide for successive Rule 26(B) applications. 108 Ohio law further states
that once ineffective counsel has been raised and adjudicated, res judicata bars relitigation. 109 This interpretation of Ohio law is binding on a federal habeas court. 110 Thus,
any sub-claims of Ground One first asserted in the second Rule 26(B) application are
procedurally defaulted unless Thomas can establish cause for that default and prejudice
from this Court not reaching those sub-claims.
That said, it is important to note that Thomas argues that the first Rule 26(B) application was a “nullity,” due to the ineffective assistance of attorney Levine. 111 As such, he
contends that his later filed Rule 26(B) application should be considered as an initial

106

ECF No. 28 at 30.
ECF No. 20.
108
Smith v. Warden, Toledo Corr. Inst., 780 F. App'x 208, 223 (6th Cir. 2019) (citations
omitted).
109
Id. (citation omitted).
110
Bradshaw v. Richey, 546 U.S. 74, 76 (2005).
111
ECF No. 28 at 30.
107

24

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 25 of 42. PageID #: 1540

application. 112
However, the Sixth Circuit addressed and rejected a very similar claim in 2019 in
Smith v. Warden. 113 In Smith, the habeas petitioner argued, as does Thomas, that the
prohibition on second Rule 26(B) applications should not apply “where a second Rule
26(B) application ‘addresses entirely new instances of IAAC and errors committed by a
different appellate attorney.’” 114 In response, the Smith court noted that there is no
authority for such a proposition. 115
Moreover, and crucially, Smith also found no basis for claiming that a second Rule
26(B) application should be available to address errors committed by the attorney who
represented the petitioner on the first application. 116 In that regard, Smith pointed out that
it is well-established that a Rule 26(B) application is a post-conviction remedy with no
right to counsel. 117 Accordingly, Smith concluded, “[b]ecause there is no right to counsel
in Rule 26(B) proceedings, there can be no ineffective assistance of Rule 26(B) counsel
claim.” 118
Similarly, the 2017 Sixth Circuit case of Young v. Westbrook 119 is also relevant.
Young explained the contours of the “attorney abandonment” exception to the general rule

112

Id.
Smith v. Warden, Toledo Corr. Inst., 780 F. App'x 208 (6th Cir. 2019).
114
Id. at 223 (internal citation omitted).
115
Id.
116
Id.
117
Id.
118
Id.
119
Young v. Westbrooks, 702 F. App'x 255 (6th Cir. 2017).
113

25

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 26 of 42. PageID #: 1541

that even “egregious” attorney negligence will not provide cause to excuse procedural default by post-conviction counsel. Young emphasized that the situation in Maples v.
Thomas 120—the case that found the narrow attorney abandonment exception—arose when
the attorneys for the habeas petitioner actually left their law firm for other employment
after filing the post-conviction petition without notifying the petitioner, thus causing the
petitioner to miss the deadline for filing an appeal in the post-conviction matter. 121 Maples
noted that by actually leaving their original law firm and assuming new employment, the
attorneys legally “disabled [their old law firm] from continuing to represent Maples”[since
no other remaining attorneys were licensed to practice in petitioner’s home state] and left
him without “the assistance of any authorized attorney” during the time for filing an
appeal.” 122
As such, the Supreme Court determined, these “uncommon facts” and
“extraordinary circumstances” amounted to actual attorney abandonment. 123
In Young, the Sixth Circuit addressed a claim that counsel had “effectively”
abandoned a petitioner by missing filing deadlines, failing to raise the “best issues” in the
post-conviction proceeding and “never communicat[ing]” with the petitioner during the
course of his representation. 124 The Sixth Circuit found that while all these alleged failings

120

565 U.S. 266 (2012).
Id. at 275–78.
122
Id. at 288–89.
123
Id. at 280, 289.
124
Young, 702 F. App'x at 262.
121

26

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 27 of 42. PageID #: 1542

raise questions about counsel’s effectiveness, they do not—separately or together—constitute abandonment. 125
In particular, Young noted that, unlike the attorneys in Maple who actually left the
law firm and made no further efforts to represent the petitioner, the counsel in Young, like
here, filed motions in the post-conviction proceeding seeking to explain the late filing of
the application. 126

Moreover, Young concluded that the failure to assert what are

purportedly the “best claims” for relief is merely “claim abandonment” and not “client
abandonment.” 127 Young stated that merely disputing the merits of the claims asserted is
not equivalent to the situation in Maples where the petitioner was “left without any
functioning attorney of record.” 128 Finally, Young found that even gross negligence in
communication by counsel was “dilatory and ineffective behavior,” but was not equivalent
to “renunciation or withdrawal, or a rejection or desertion of one’s responsibilities, a
walking away from the relationship.” 129
Young concluded that “[t]o our knowledge, no other court of appeals has held that a
lawyer abandons his client despite filing a brief on his behalf, and we will not be the first
to extend Maples in this fashion.” 130
These recent teachings of the Sixth Circuit provide significant guidance here, but
Smith and Young must be read together with the holding of the District Court in this case

125

Id.
Id.
127
Id.
128
Id. (internal quotation and citation omitted).
129
Id. at 264 (internal citations omitted).
130
Id. at 265.
126

27

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 28 of 42. PageID #: 1543

that found that attorney Levine’s misconduct was sufficient to equitably toll the one-year
limitations statute. 131
In so doing, two important distinguishing features seem apparent when considering
the District Court’s ruling on equitable tolling in this context of procedural default. First,
the District Court’s decision—by its own terms—involved only the question of equitable
tolling and did not reach the issue of procedural default. That distinction has been recognized by the Eleventh Circuit in Downs v. McNeill. 132 Second, the District Court found
effective abandonment in the context of equitable tolling essentially in the
misrepresentations by counsel that he was working for Thomas, representations that were
relied upon by Thomas such that he erroneously believed his federal habeas time clock was
being tolled from the timely filing of a post-conviction petition. 133 As such, the error here
was more “egregious” than the mere negligence of miscalculating the time for filing but
involves the “extraordinary” situation of making misleading statements in violation of the
canons of legal ethics. 134
That said, I recommend finding that the remainder of Ground One, not otherwise
non-cognizable, is procedurally defaulted for several reasons.
First, even if attorney Levine’s misrepresentations about filing the Rule 26(B)
application on time caused the application to be rejected as untimely, the effective

131

ECF No. 20.
Downs v. McNeil, 520 F.3d 1311, 1321 (11th Cir. 2008).
133
ECF No. 20 at 6. “Levine’s misrepresentations and effective abandonment of his client
severed the agency relationship with Petitioner and met the first prong of the equitable
tolling doctrine.”
134
See Holland v. Florida, 560 U.S. 631, 651-52 (2010).
132

28

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 29 of 42. PageID #: 1544

abandonment found by the District Judge, as noted above, was strictly confined to equitable
tolling grounds related to the statute of limitations. 135

Whatever misrepresentations

attorney Levine made to Thomas that resulted in Thomas filing a late pro se application
and here in finding equitable tolling, the record also shows that attorney Levine prepared
and submitted a brief to the appeals court in connection with that original Rule 26(B)
application, which brief he unsuccessfully sought to have substituted for Thomas’s pro se
brief. As previously noted by the Sixth Circuit in Young, a case arising in the context of
procedural default, no appeals court has ever found attorney abandonment in the context
of procedural default where the attorney filed a brief on behalf of his client.
Second, even if this Court were to conclude that the District Judge’s order finding
effective attorney abandonment also applies as “cause” in the context of procedural default,
Thomas can show no “prejudice” from this Court not addressing either the claims he raised
pro se to the state appeals court in the untimely Rule 26(B) application or the claims that
were raised in the brief attorney Levine submitted in support of his unsuccessful attempt
to get the appeals court to re-consider the order dismissing the Rule 26(B) application as
untimely.
In both instances, only one of the claims raised in those briefs corresponds to a subclaim asserted here in Ground One.
Specifically, Thomas’s first pro se claim in the Rule 26(B) application concerned

135

ECF No. 20 at 6, fn.4. (Noting that the “motion to dismiss was limited to the statute of
limitations” and insisting that “a full return of the writ and traverse should be ordered.”)
29

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 30 of 42. PageID #: 1545

trial counsel’s failure to object to hearsay testimony from the victim. 136 Attorney Levine
restated that argument in his brief in support of reconsideration. 137 Sub-claim F of Ground
One of this petition states that trial counsel was infective for failing to object to hearsay
statements made by the victim and repeated in trial by his girlfriend.
I note initially, even if that sub-claim F were now to be addressed here, it would not
preserve for habeas review the other six sub-claims in Ground One. Those claims were
not presented to an Ohio court until nearly a year after the first Rule 26(B) application was
adjudicated. As the Supreme Court has stated, “inadequate assistance of counsel at initialreview collateral proceedings may establish cause for a prisoner’s procedural default of a
claim of ineffective assistance at trial.” 138 But, that exception applies only to the initialreview collateral proceedings and does not apply to attorney errors in appeals from that
initial proceeding or to second or successive proceedings. 139
Further, except for sub-claim F regarding hearsay (which will be considered below
on the merits) the remaining sub-claims of Ground One were not presented to an Ohio court
until nearly a year later in the second Rule 26(B) application (sub-claims A, B, C, D) or
they are not cognizable as a claim for habeas relief (sub-claims E, G). As such, none of
these six sub-claims are, as detailed above, saved by any cause and prejudice argument
concerning attorney Levine’s conduct during the first Rule 26(B) application but are procedurally defaulted as they were new alternative arguments first asserted in the second Rule

136

ECF No. 7, Attachment 2 at 120.
Id. at 145.
138
Martinez, 566 U.S. at 9.
139
Id. at 16 (emphasis added).
137

30

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 31 of 42. PageID #: 1546

26(b) application that the Ohio appeals court dismissed because Ohio does not permit a
second Rule 26(B) application.
In that regard, Thomas has made no attempt to show any cause to excuse this second
procedural default. 140 Further, the record shows that Thomas was not acting diligently
during the one year between attorney Levine’s misconduct in March and April of 2016 and
the second Rule 26(B) application containing the sub-claims of the current Ground One,
which was filed by attorney Parker in August 2017.
Finally, as the District Court has already found, Thomas cannot show actual
innocence to excuse the procedural default. 141
Accordingly, I recommend finding that sub-claims A, B, C and D of Ground One
be dismissed as procedurally defaulted.
Sub-claim F
This sub-claim asserts that Thomas’s trial counsel was ineffective for failing to
object under the confrontation clause of the Constitution to allegedly hearsay testimony by
the victim’s girlfriend that the victim was afraid of Thomas’s cousin and co-defendant. 142
As he explains in the related claim set out in Ground Two, Thomas contends that the implication of this hearsay was that the victim was also afraid of Thomas, who was close to

140

Thomas argues that if the Ohio court had reconsidered the decision to dismiss the
original Rule 26(B) application it “would have ordered further briefings” that would have
resulted in granting relief. ECF No. 28 at 30. Thomas offers no reason why any further
briefing in April 2016 would have produced the new grounds for relief presented over a
year later by a different attorney who was not involved in the case in 2016.
141
ECF No. 20 at 5 fn.3.
142
ECF No. 1.
31

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 32 of 42. PageID #: 1547

his cousin with whom he was communicating by cellphone at the time of the killing. 143
As noted, Thomas has established cause for the procedural default regarding subclaim F of Ground One because, although the state appeals court dismissed as untimely
filed the first Rule 26(B) application where this claim was asserted, the District Court has
found that this Rule 26(B) application was late-filed because of the misrepresentations of
attorney Levine.
However, even though cause for the procedural default is established, Thomas
cannot establish prejudice arising from this Court not addressing sub-claim F. To show
prejudice in a case involving ineffective assistance of trial counsel Thomas must show that
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result of
the proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” 144
Here, the Ohio appeals court in the direct appeal considered whether the trial court
erred in admitting the hearsay testimony of the victim’s girlfriend and whether admitting
that testimony violated the confrontation clause. 145 The Ohio appeals court found that it
would not reach the confrontation clause issue because Thomas’s counsel had not raised it
at trial, and had thus waived it. 146 It further found that the girlfriend’s testimony was not
hearsay because, under Rule 803(c) it did not involve an assertion of fact but concerned

143

Id.
Strickland v. Washington, 466 U.S. 668, 694 (1984).
145
ECF No. 7, Attachment 2 at 91.
146
Id. at 92.
144

32

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 33 of 42. PageID #: 1548

the victim’s state of mind. 147
In Apanovitch v. Houk, 148 the Sixth Circuit examined Ohio Evid. R. 803(c) in similar
circumstances to the present case. In Houk witnesses testified that the victim was afraid of
a man matching the accused’s description. 149 The Sixth Circuit then characterized Ohio
Evid. R. 803(c) (which it noted was “identical” to the analogous federal rule) as saying that
“a witness may testify that someone expressed to them fear of someone or something, but
they may not testify as to that person’s explanations of why they were afraid.” 150 In fact,
Houk referred to Sixth Circuit authority which held “that no Supreme Court precedent
existed that precluded, as violative of the defendant’s due process rights, the admission of
state-of-mind evidence that the murder victim feared the defendant.” 151
Similarly, the admission of this testimony did not implicate the confrontation clause.
First, as noted, the Ohio appeals court did not reach this issue because it found the issue
was waived by trial counsel’s failure to object and appellate counsel’s failure to argue plain
error. 152 Ohio’s contemporaneous objection rule has been found to be an adequate and
independent state law ground to bar federal habeas review. 153 Next, as stated above,
Thomas did not timely appeal this issue to the Supreme Court of Ohio.

147

Id. at 93.
Apanovitch v. Houk, 466 F.3d 460 (6th Cir. 2006).
149
Id. at 487.
150
Id. (emphasis original) (citations omitted).
151
Id. (citation omitted). Apanovitch arose under prior to the adoption of AEDPA, and the
Court here made a point to cite to Sixth Circuit precedent occurring after the adoption of
AEDPA.
152
ECF No. 7, Attachment 2 at 92.
153
Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir. 2001).
148

33

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 34 of 42. PageID #: 1549

However, assuming that this untimeliness is also excused for cause by attorney
Levine’s actions, Thomas cannot show prejudice from this Court not addressing the
confrontation clause issue. Simply put, the confrontation clause is only implicated by
testimonial statements, while non-testimonial statements are subject to the normal rules
pertaining to hearsay. 154 As the federal habeas court recently found in Holbrook v. Burt, 155
statements made by a victim to his girlfriend and admitted at trial under Mich. R. Evid.
803(3) as state-of-mind exceptions to the hearsay rule—an identical situation to the one
here—were “nontestimonial, and the Confrontation Clause is not implicated.” 156
As set forth above, in both the hearsay and confrontation clause contexts, objecting
at trial or raising the failure to object on appeal would have been futile or without merit. It
is axiomatic that trial counsel is not ineffective for failing to raise a futile or meritless
argument, motion or objection and appellate counsel is not ineffective for failing to assert
such claims. 157
Accordingly, sub-claim F is procedurally defaulted because Thomas cannot establish prejudice. 158
Therefore, and for the reasons stated, I recommend finding that Ground One be

154

Holbrook v. Burt, No. 2:13-CV-11235, 2020 WL 955916, at *17 (E.D. Mich. Feb. 27,
2020), reconsideration denied, No. 2:13-CV-11235, 2020 WL 1551136 (E.D. Mich. Apr.
1, 2020) (citations omitted).
155
Id.
156
Id.
157
Bennett v. Klee, No. 11-14160, 2014 WL 4316020, at *1 (E.D. Mich. Sept. 2, 2014)
(citations omitted).
158
As stated above, Thomas cannot excuse the procedural default by actual innocence. ECF
No. 20 at 5, fn.3.
34

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 35 of 42. PageID #: 1550

dismissed in part as procedurally defaulted (sub-claims A, B, C, D, F) and in part as
containing non-cognizable grounds for habeas relief (sub-claims E, G).
E.

Ground Two

In Ground Two Thomas claims that the trial court violated Thomas’s confrontation
clause rights when it allowed the hearsay statement by the victim’s girlfriend as to the point
that the victim was afraid of Thomas’s cousin.
As noted above, the Ohio appeals court found that this claim was procedurally
defaulted because trial counsel had not made a contemporaneous objection. As also noted,
Ohio’s contemporaneous objection rule is an adequate independent state law ground to
foreclose federal habeas review. Finally, as was noted, even if this claim were not
procedurally defaulted, admission of this testimony was proper and did not violate the
confrontation clause.
In his traverse Thomas does not acknowledge that this claim in procedurally
defaulted and makes no effort to excuse the default. He simply asserts without citation to
authority that this testimony “clearly violates” the Sixth Amendment and was fundamental
to the State’s case. 159
For the reasons stated, I recommend dismissing Ground Two as procedurally defaulted.
F.

Ground Three

Here, Thomas contends that there was insufficient evidence to convict him. He

159

ECF No. 28 at 31.
35

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 36 of 42. PageID #: 1551

contends that the case against him was purely circumstantial and weak. 160
This claim was presented to the Ohio appeals court, which reviewed the claim under
the well-established standard of Jackson v. Virginia. 161 That standard states that the
relevant inquiry is whether, after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the crime
proven beyond a reasonable doubt. 162 As is well-recognized, on habeas review, the
question is not whether the trier of fact made the correct decision, but rather whether the
decision was rational. 163 Thus, the federal habeas court does not reweigh the evidence, reevaluate the credibility of the witnesses or substitute its judgment for that of the jury.164
Moreover, circumstantial evidence alone is sufficient to support a conviction, and it is not
necessary for the evidence to exclude every reasonable hypothesis except that of guilt. 165
In addition, on federal habeas review, it is recognized that a claim of insufficient
evidence is subject to two levels of deference—to the decision of the jury and then to the
decision of the state appeals court. 166 In other words, even if the federal habeas court were
to conclude that the jury could not have found the petitioner guilty, that court must still

160

Id. at 32.
Jackson v. Virginia, 443 U.S. 307 (1979). Here, the appeals court cited the Ohio case
that incorporated Jackson into Ohio law.
162
Id. at 319.
163
Herrera v. Collins, 506 U.S. 390, 402 (1993).
164
Brown v. Konteh, 567 F.3d 191, 205 (6th Cir. 2009).
165
Johnson v. Coyle, 200 F.3d 987, 992 (6th Cir. 2000) (citations omitted).
166
Brown, 567 F.3d at 205.
161

36

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 37 of 42. PageID #: 1552

defer to the state appellate court’s sufficiency determination as long as it is not unreasonable. 167
Here, the Ohio appeals court began by explicitly citing the clearly established
federal law applicable to the review. 168 The court then cited to authority holding that
circumstantial evidence has the same weight as direct. 169 It then noted that, viewed in the
light most favorable to the State, the evidence at trial showed:
The victim had some prior history with Thomas that made the victim concerned for
his safety;
At the time of the shooting Thomas was driving the same make, model and color
vehicle as was the killer, was in the same part of the city and was wearing a similarlycolored sweatshirt;
Immediately after the shooting, Thomas’s cellphone made several calls to his
cousin’s cellphone;
Shortly thereafter, Thomas pulled his vehicle behind a house and began to clean the
inside of the vehicle—according to a detective, the type of gun used to kill the victim would
have ejected shell casings into the interior of the shooter’s vehicle;
As Thomas cleaned the inside of the vehicle, the cousin whose cellphone had received messages from Thomas’s cellphone arrived to help him;
Finally, the night that charges were issued for Thomas, the Rendezvous he was

167

Id.
ECF No. 7, Attachment 2 at 91.
169
Id. (citation omitted).
168

37

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 38 of 42. PageID #: 1553

driving on the morning of the shooting was set on fire after being painted a different
color. 170
The appeals court, on reviewing this evidence, then concluded that:
Based on testimony from the victim’s girlfriend, the victim was concerned for his
safety after one of Thomas’s cousins was killed and then began to drive his truck
everywhere, so that the height of the truck would permit him to have a good view of his
surroundings;
On the morning of the shooting, the victim’s truck wouldn’t start so he used a station
wagon—suggesting that the killer had been waiting for an opportunity to kill the victim
under more favorable conditions;
These facts support the finding that Thomas killed the victim with prior calculation
and design;
The fact that Thomas drove the Rendezvous to a secure location immediately after
the shooting and began cleaning out the interior with the assistance of his cousin—as well
as the fact that the Rendezvous was set on fire after police began searching for Thomas—
is sufficient circumstantial evidence to support the conviction for tampering with the
evidence. 171
Thomas now claims that cellphone records and video evidence that put him in the
area of the killing, plus evidence that he was driving a “similar SUV,” are “not enough”
for the jury to “reach a subjective state of near certitude” as to the existence of his guilt as

170
171

Id. (citations to the record omitted).
Id. at 93-94.
38

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 39 of 42. PageID #: 1554

to each element of the offense. 172
I recommend finding that this ground be denied on the merits for the reason that the
Ohio appeals court decision was not an unreasonable application of Jackson. As noted
above, this Court is required to accord deference to the jury decision that found Thomas
guilty and also give deference to the finding of the Ohio appeals court that found that the
jury’s decision was supported by substantial evidence. Here, the Ohio appeals court appropriately set forth the evidence as it related to each charge and concluded that a
reasonable juror, viewing the evidence in the light most favorable to the prosecution, could
find Thomas guilty.
G.

Ground Four

In Ground Four Thomas contends that his appellate counsel was ineffective for
failing to timely notify him of the decision of the appeals court on direct review. 173 As a
consequence of this ineffectiveness, Thomas claims he was prejudiced by not filing a
timely appeal to the Ohio Supreme Court. 174
As noted, the District Court has already found that attorney Levine effectively
abandoned Thomas by not timely informing him of the appellate court’s decision and by
promising to file a timely appeal with the Supreme Court of Ohio, but then not following
through. 175 While that finding was in the context of equitable tolling, I have already
recommended that it be applied as cause to excuse procedural default—here, providing

172

ECF No. 28 at 32.
Id. at 33.
174
Id.
175
ECF No. 20 at 20 at 2.
173

39

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 40 of 42. PageID #: 1555

cause for not filing a timely appeal with the Ohio Supreme Court.
But, that said, Thomas cannot establish prejudice from this Court not considering
the issues he attempted to raise with the Ohio Supreme Court, which that court declined to
consider. Specifically, the issues raised in the delayed appeal were:
1.

Did the trial court err when it allowed the introduction of inadmissible

hearsay of the victim in violation of the confrontation clause and the appellate court refused
to consider as plain error?
2.

Did the appellate court err because the State failed to establish on the record

sufficient evidence to support the charges levied against Thomas?
3.

Did the appellate court err in failing to find that Thomas’s convictions were

against the manifest weight of the evidence?
4.

Is appellate counsel ineffective when he fails to inform an appellant of the

decision of the appellate court that resulted in Appellant missing a deadline for filing his
appeal with the Supreme Court? 176
There is no prejudice here because, as noted: (1) there was no inadmissible hearsay
and (2) there was sufficient evidence. Further, manifest weight of the evidence claims are
a matter of state law and are non-cognizable in a federal habeas proceeding. 177
I therefore recommend that Ground Four be dismissed.

176

ECF No. 7, Attachment 2 at 105.
Little v. Brunsman, No. 1:12-CV-145, 2014 WL 4354547, at *29 (N.D. Ohio Sept. 2,
2014) (citations omitted).

177

40

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 41 of 42. PageID #: 1556

H.

Ground Five

In Ground Five Thomas raised a free-standing claim of actual innocence. As such,
it is non-cognizable. 178 Further, even if considered as a gateway to excusing procedural
default or a time-bar, 179 this Court has concluded that actual innocence is not available
here. 180
Thus, Ground Five should be dismissed.
Conclusion
For the reason stated, the petition of Gracshawn Thomas for a writ of habeas corpus
should be dismissed in part and denied in part as is more fully set forth above.
Dated: May 15, 2020

s/ William H. Baughman, Jr.
United States Magistrate Judge

178

Herrera, 506 U.S. at 400.
McQuiggin v. Perkins, 569 U.S. 383, 386 (2013).
180
ECF No. 20 at 5, fn.3.
179

41

Case: 5:17-cv-01769-PAB Doc #: 29 Filed: 05/15/20 42 of 42. PageID #: 1557

Objections
Any objections to this Report and Recommendation must be filed with the Clerk of
Court within 14 days of service of this notice. Failure to file timely objections within the
specified time shall constitute a waiver of subsequent review, absent a showing of good
cause for such failure.

See Local Rule 72.3(b); United States v. Walters, 638 F.2d 947 (6th Cir. 1981); Thomas
v. Arn, 474 U.S. 140 (1985).
42

